Office of Inspector General
 for the Millennium Challenge Corporation


May 31, 2011

Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Review of Millennium
Challenge Corporation-Funded Contracts with Government-Owned Enterprises in Mali (Review
Report No. M-000-11-004-S). In finalizing the report, we considered your written comments on
our draft report and included those comments in their entirety in Appendix II of this report.

The review report contains three recommendations to address (1) vehicle safety, (2)
documentation related to employee training, and (3) employee health and safety. We assessed
whether selected government-owned enterprises adhered to MCC policies and procedures that
address (1) worker health and safety, (2) environmental protection, (3) quality construction, and
(4) sound labor practices when implementing MCC compact projects; and whether the
Millennium Challenge Account-Mali adhered to MCC’s Program Procurement Guidelines when
selecting government-owned enterprises to implement compact projects. We consider that
management decisions have been reached on Recommendations 1, 2, and 3. Additionally, we
consider final action taken on Recommendation 3. Final action will not be reached on
Recommendations 1 and 2 until the action plans are fully implemented by MCA-Mali.

I appreciate the cooperation and courtesy extended to my staff during this review.

Sincerely,

     /s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
SUMMARY
This review is in response to Congressman Frank R. Wolf’s September 29, 2010,
request to review Chinese government-owned enterprises (GOEs) that receive contracts
for Millennium Challenge Corporation (MCC)-funded programs. Congressman Wolf
requested that the Office of Inspector General (OIG) review the extent to which Chinese
GOEs adhere to health and safety, environmental, quality construction, and labor
policies, and whether the procurement process was open, fair, and competitive.

On September 27, 2010, MCC amended its Program Procurement Guidelines (Interim
Amendment Notice 2010-001) to prohibit GOEs from competing for MCC-funded
contracts. 1  MCC made this amendment to help ensure a level playing field for
commercial firms from all countries. Owing to the challenge of determining whether a
company is actually government-owned, MCC has identified a process to recognize
GOEs if they bid for contracts.

On November 13, 2006, MCC and the Government of the Republic of Mali signed a 5-
year, approximately $461 million compact. The compact aims to support policy reform
and key infrastructure development by addressing Mali’s constraints to growth and
capitalizing on two of the country’s major assets: (1) the Bamako-Sénou International
Airport as a gateway for regional and international trade and (2) the Niger River Delta for
irrigated agriculture.

This review covered two contracts under the compact awarded to the Chinese GOE
Sinohydro in Mali: (1) the $71.6 million airport improvement contract and (2) the $46.3
million canal expansion contract. The objective of this review was to answer the
following questions:

    •   Did the selected government-owned enterprises adhere to MCC policies and
        procedures that address (1) worker health and safety, (2) environmental
        protection, (3) quality construction, and (4) sound labor practices when
        implementing MCC compact projects?

    •   Did the Millennium Challenge Account (MCA) adhere to MCC’s Program
        Procurement Guidelines when selecting government-owned enterprises to
        implement compact projects?

Sinohydro, the Chinese GOE with two MCC-funded contracts in Mali, generally adhered
to the health and safety plan, but can take several actions to improve worker health and
safety (page 4). For example, there is a need for more regular vehicle inspections,
better documentation related to employee training, and additional or replacement
equipment, particularly respiratory masks and gloves. The review team did not identify
any noncompliance with the environmental management plan or problems with the
quality of Sinohydro’s construction. Also, nothing came to the OIG’s attention that would
indicate unsound labor practices or non-compliance with MCC’s Program Procurement

1
 As of September 2010, contracts were awarded to government-owned enterprises that totaled
$400 million (see Table 2 in Appendix IV).

                                             2
Guidelines. Sinohydro was awarded the two contracts prior to the MCC bid prohibition
against GOEs. In fact, for the airport improvement project, Sinohydro was the only firm
that submitted a bid.

The report recommends that MCC require MCA-Mali to ensure that Sinohydro:

1. Regularly inspects its vehicles for safety compliance, and performs routine
maintenance on the vehicles to keep them in good operating condition (page 4).

2. Institutes a process to substantiate that all employees receive health and safety
training (page 4).

3. Replaces, as needed, health and safety equipment such as masks and gloves,
and installs first aid kits at the airport construction site (page 5).

Detailed results appear in the following section. Appendix I contains the scope and
methodology. Management decisions have been reached on Recommendations 1 and
2, but final action will not take place until MCA-Mali’s action plans are fully implemented.
For Recommendation 3, OIG considers that a management decision has been reached
and final action taken.




                                             3
REVIEW RESULTS
Vehicles Not Routinely Inspected

Four of nine drivers working at Sinohydro’s base camp for the canal expansion activity
stated that sometimes they were required to drive unsafe vehicles. The main complaint
was that some vehicles had very worn tires. Further, the drivers stated that Sinohydro
was largely unresponsive to their concerns regarding the poor condition of the vehicles.

It is important to keep vehicles in safe operating condition because not doing so
increases the risk of accidents to employees and the community. Furthermore, not
adequately maintaining vehicles lessens their efficiency, and therefore may negatively
impact project performance. To address this issue, we are making the following
recommendation.

       Recommendation 1. We recommend that the Millennium Challenge
       Corporation require the Millennium Challenge Account-Mali to ensure that
       Sinohydro (1) regularly inspects its vehicles for safety compliance, and (2)
       performs routine maintenance on the vehicles to keep them in good
       operating condition.


Better Documentation
Needed for Health and Safety Training

In addressing the responsibilities of Sinohydro, Section 3.3 of the Environment
Management, Health, and Safety Plan requires that employees receive health and safety
training. However, only 13 (43 percent) of 30 Malians interviewed on the canal
expansion activity stated that they had some form of health or safety training. The 17
remaining Malian employees stated that they had received no health or safety training.
In contrast, the supervisory engineer and Sinohydro believed that all employees had
received some form of training. However, adequate documentation was not available to
verify which employees had received health and safety training, and as a result the
review team was not sure how many employees actually received training. It was
unclear why Sinohydro did not keep adequate training records. To address this issue,
we are making the following recommendation.

       Recommendation 2. We recommend that the Millennium Challenge
       Corporation Vice President of Compact Operations require the Millennium
       Challenge Account-Mali to ensure that Sinohydro institutes a process to
       substantiate that all employees receive health and safety training.




                                           4
Replacement Health and Safety Protection
and First Aid Kits Needed

Basic health and safety items such as masks and gloves should routinely be replaced as
needed to protect employees’ health and to minimize the risk of accidents and injuries.
Section 3.3 of the Environment Management, Health, and Safety Plan for the canal
expansion activity requires that Sinohydro provide employees with personal protective
equipment. Although all 52 Malian employees interviewed had some personal protective
equipment, 8 of them needed a new or replacement mask for dust or smoke and 9 of
them needed new or replacement gloves. Some employees indicated that the lack of
personal protective equipment negatively affected their morale.

At the three airport construction sites, the review team observed no first aid kits,
although the largest of the three sites does have an adjacent health clinic. Sinohydro
management stated that the lack of first aid kits resulted from employees stealing them
immediately after they are placed onsite. Nevertheless, best practices and prudence
suggest that adequate first aid kits be available on all sites so that accidents and injuries
requiring treatment can be promptly attended to. To address this issue, we are making
the following recommendation.

       Recommendation 3. We recommend that the Millennium Challenge
       Corporation Vice President of Compact Operations require Millennium
       Challenge Account-Mali to ensure that Sinohydro replaces, as needed,
       health and safety equipment such as masks and gloves, and installs first
       aid kits at the airport construction site.




                                             5
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments on the draft
report that are included in their entirety in Appendix II of this report. In its comments,
MCC agreed with all three of our recommendations.

MCC agreed with Recommendation 1, to require the Millennium Challenge Account-Mali
(MCA-Mali) to ensure that Sinohydro (1) regularly inspects its vehicles for safety
compliance and (2) performs routine maintenance on the vehicles to keep them in good
operating condition. MCA-Mali has already outlined and begun implementing an action
plan to ensure that Sinohydro’s vehicles are regularly inspected for safety compliance
and that Sinohydro performs routine maintenance on the vehicles. The plan is expected
to be fully implemented by June 23, 2011. OIG considers that a management decision
has been reached. However, final action will not take place until the plan is fully
implemented.

MCC agreed with Recommendation 2, to require MCA-Mali to ensure that Sinohydro
institutes a process to substantiate that all employees receive health and safety training.
MCA-Mali has already outlined and begun implementing an action plan to ensure that
Sinohydro institutes a process to substantiate that all employees receive health and
safety training. The plan is expected to be fully implemented by June 23, 2011. OIG
considers that a management decision has been reached. However, final action will not
take place until the plan is fully implemented.

MCC agreed with Recommendation 3, to require MCA-Mali to ensure that Sinohydro
replaces, as needed, health and safety equipment such as masks and gloves, and
installs first aid kits at the airport construction site. As of May 10, 2011, first aid kits have
been placed at all airport worksites. Three large kits are protected by the site guards at
the Sinohydro office, the terminal site, and at the base camp, and two smaller kits are
protected by the guards at the water tower site and the wastewater treatment station.
Upon MCC inspection on May 10, 2011, all kits appeared to be well stocked.

As of May 9, 2011, MCA-Mali has confirmed that personal protective equipment (gloves,
safety boots, dust masks, goggles) has been provided for all workers in accordance with
the contract terms. MCA-Mali’s Health and Safety Specialist regularly performs worksite
inspections to ensure compliance with these requirements. For Recommendation 3,
OIG considers that a management decision has been reached and final action taken.




                                               6
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG) conducted this review as a response to
Congressman Frank R. Wolf’s September 29, 2010, request to review Chinese
government-owned enterprises (GOEs) that receive contracts for Millennium Challenge
Corporation (MCC)-funded programs. To put the results in a broader context, OIG
expanded the review to other GOEs that received infrastructure contracts for MCC-
funded programs. Congressman Wolf had four specific areas of concern regarding the
contractors’ compliance with MCC policies and procedures: (1) health and safety, (2)
environmental protection, (3) quality construction, and (4) sound labor practices. He
also asked whether the procurement was open, fair, and competitive.

Although this review was not an audit, we conducted this review in accordance with
Government Auditing Standards, July 2007 Revision (GAO-07-731G) specifically
Chapter 3 and Chapter 7, Sections 7.55 and 7.74, 7.76 to 7.79. We planned and
performed this review to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our review objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions.

OIG conducted its fieldwork for this review from November 15, 2010 to March 30, 2011,
at MCC’s headquarters in Washington, DC, with site visits to Mali from January 22 to
February 11, 2011, and February 28 to March 4, 2011. OIG selected Mali because it
had two compact-funded GOEs that had contracts totaling $117.9 million, and both
contracts were in the implementation stage. However, because the request focused
specifically on government-owned enterprises that received MCC funds, OIG did not
review private sector companies implementing MCC projects.

Methodology
The review team met with MCC staff in Washington, DC and Mali. While in Mali, the
team reviewed supporting documentation on the procurement process that was
prepared by the procurement agent. We interviewed personnel at Millennium Challenge
Account-Mali (MCA-Mali), supervisory engineering firms AECOM and SNC-Lavalin,
Sinohydro, and the procurement agent. We conducted site visits to the airport project
and the canal expansion activity.

In addition, the review team conducted a statistical sample, with a 95 percent confidence
level, of selected Malian employees who worked for Sinohydro. To ensure a 95 percent
confidence level, 5 percent error rate, and 4 percent precision, the OIG team determined
the sample size to be 22 of 49 Malian employees and 30 of 63 Malians employed by
Sinohydro at the airport and canal expansion sites, respectively. Appendix III
summarizes the results of our interviews of those employees.

Further, we judgmentally selected and interviewed 24 of 168, and 20 of 86 Chinese
employees employed by Sinohydro at the airport and canal expansion sites,
respectively.


                                           7
                                                                                    APPENDIX I



The review team assessed, through observations and interviews, whether selected
GOEs adhered to MCC policies and procedures that address (1) worker health and
safety, (2) environmental protection, (3) quality construction, and (4) sound labor practices
when implementing MCC compact projects; and whether MCA-Mali adhered to MCC’s
Program Procurement Guidelines when selecting GOEs to implement compact projects.

To answer the objective questions, the team—

    •   Interviewed supervisory engineers responsible for overseeing the infrastructure
        projects and the GOE.

    •   Interviewed local and expatriate staff working on the construction sites to learn
        about their experiences working for the GOE.

    •   Performed document reviews of worker wage records and Health and Safety
        Plans that each contractor must develop.

    •   Engaged an engineer to review the quality of construction and ensure that
        substandard materials were not used in the compact project.

    •   Conducted a statistical sample to select a percentage of workers employed at the
        GOE.

    •   Relied on the reports of the independent procurement agent. 2




2
 The procurement agent is an entity separate from MCA-Mali that is responsible for facilitating
and monitoring the procurement process.

                                                8
                                                                                   APPENDIX II


MANAGEMENT COMMENTS

                                                
                                                
                                                                                
                                                                       
                                                                       
                                                                       
                                                                 MEMORANDUM 
                                                
                                                
                                                
Date:          May 12, 2011 
 
To:            Alvin Brown, Assistant Inspector General 
               Millennium Challenge Corporation 
                       
               From:  Patrick Fine, Vice President /s/ 
               Millennium Challenge Corporation 
               Department of Compact Operations 
 
Subject:       Notice of Management Comments and Management Decision on Findings 
               and Recommendations in the Review of Millennium Challenge Corporation‐
               Funded Contracts with Government‐Owned Enterprises in Mali.  
 
 
This memo serves to transmit Millennium Challenge Corporation’s comments and 
management decision for Findings and Recommendations in the Review of Millennium 
Challenge Corporation‐Funded Contracts with Government‐Owned Enterprises in Mali, 
Report # M‐000‐11‐00X‐S.   
 
MCC is very appreciative of the referenced report’s findings that MCA‐Mali did adhere to 
MCC’s Program Procurement Guidelines when it selected a government‐owned enterprise 
to implement a compact project, and that the selected government‐owned enterprise did 
adhere to MCC policies and procedures that address (1) worker health and safety, (2) 
environmental protection, (3) quality construction, and (4) sound labor practices. 
         
Recommendation 1: 
 
“We  recommend  that  the  Millennium  Challenge  Corporation  Vice  President  of  Compact 
Operations  require  the  Millennium  Challenge  Account‐Mali  to  ensure  that  Sinohydro  (1) 
regularly inspects its vehicles for safety compliance, and (2) performs routine maintenance 
on the vehicles to keep them in good operating condition.” 


                                               9
                                                                                      APPENDIX II


MCC Response: 
  
MCC  agrees  with  the  above  recommendation.    MCA‐Mali  has  already  outlined  and  begun 
implementing an action plan to ensure that the contractor’s vehicles are regularly inspected 
for safety compliance and that Sinohydro performs routine maintenance on the vehicles: 
 
 
            Corrective Measure                         Timeline                  Responsible 
Develop and implement a written                     June 23, 2011           Sinohydro, MCA‐Mali 
procedure for the inspection and                                            Health and Safety 
maintenance of vehicles                                                     Specialist, Supervisory 
                                                                            Engineer 
Prepare a monthly report for the                    June 23, 2011           Sinohydro, MCA‐Mali 
inspection of vehicles and monthly                                          Health and Safety 
report for the maintenance of vehicles                                      Specialist, Supervisory 
                                                                            Engineer 
 
Recommendation 2: 
 
“We  recommend  that  the  Millennium  Challenge  Corporation  Vice  President  of  Compact 
Operations  require  the  Millennium  Challenge  Account‐Mali  to  ensure  that  Sinohydro 
institutes a process to substantiate that all employees receive health and safety training.” 
          
MCC Response 
 
MCC  agrees  with  the  above  recommendation.    MCA‐Mali  has  already  outlined  and  begun 
implementing  an  action  plan  to  ensure  that  Sinohydro  institutes  a  process  to  substantiate 
that all employees receive health and safety training: 
 
            Corrective Measure                         Timeline                  Responsible 
Develop and implement a written                     June 23, 2011           Sinohydro, MCA‐Mali 
procedure for the training of workers                                       Health and Safety 
                                                                            Specialist, Supervisory 
                                                                            Engineer 
Define the training modules in a                    June 23, 2011           Sinohydro, MCA‐Mali 
database                                                                    Health and Safety 
                                                                            Specialist, Supervisory 
                                                                            Engineer 
List all of the workers who have                     June 9, 2011           Sinohydro, MCA‐Mali 
attended training in the database                                           Health and Safety 
                                                                            Specialist, Supervisory 
                                                                            Engineer 
 
 
Recommendation 3:  
 
“We  recommend  that  the  Millennium  Challenge  Corporation  Vice  President  of  Compact 
Operations  require  Millennium  Challenge  Account‐Mali  to  ensure  that  Sinohydro  replaces, 



                                                 10
                                                                                    APPENDIX II


as needed, health and safety equipment such as masks and gloves, and installs first aid kits 
at the airport construction site.” 
 
 
MCC Response: 
 
MCC agrees with the above recommendation and notes that MCA‐Mali has already ensured 
that the proper measures have been taken to bring Sinohydro into compliance with the 
terms of their contract in this area.  
 
 As of May 10, 2011, first aid kits have been placed at all Airport work sites.  Three large kits 
are protected by the site guards at the Sinohydro office, the terminal site, and at the base 
camp, and two smaller kits are protected by the guards at the water tower site and the 
waste‐water treatment station.  Upon MCC inspection on May 10, 2011, all kits appeared to 
be well‐stocked.  The Sinohydro infirmary staff is responsible for regular replenishment of 
the kits.  All employees have access to the kits; however most workers appear to prefer to 
visit the infirmary instead of using the kits on site. 
 
As of May 9, 2011, MCA‐Mali has confirmed that personal protective equipment (gloves, 
safety boots, dust masks, goggles) has been provided for all workers in accordance with the 
contract terms.  MCA‐Mali’s Health and Safety Specialist regularly performs worksite 
inspections to ensure compliance with these requirements. This constitutes management 
decision and final action. 
 
The  actions  specified  above  constitute  management  decision  for  recommendations  1  &  2 
and  final  action  for  recommendation  3.    If  you  have  any  questions,  please  contact  Pat 
McDonald, MCC Compliance Officer at 202‐521‐7260 or mcdonalda@mcc.gov. 
 




                                                11
                                                                                    APPENDIX III


            Table 1: Summary of Responses of Sinohydro Local Employees


    Sample Size: 52 of 112 Malian employees
                                                                        Number of
                                                                       Employees        Population
                              Questions                                Interviewed      Percentage
    Number of employees who work overtime
                                                                               19              27%
    Number of employees who do not work overtime
                                                                               33              54%
    Number of employees who are not sure if they work overtime
                                                                               0                   N/A
    Number of employees who received overtime pay
                                                                               7                   6%
    Number of employees who did not receive overtime pay
                                                                               12              14%
    Number of employees who are not sure if they were paid for
    overtime                                                                   0                   N/A
    Number of employees with medical expenses paid by the
    employer                                                                   9               10%

    Number of employees whose medical expenses were not paid                   1                   N/A

    Number of employees for which this does not apply                          42              73%

    Number of employees who wear safety gear                                   52             100%

    Number of employees who do not wear safety gear                            0                   N/A

    Number of employees who wear safety gear every day                         52             100%

    Number of employees who do not wear safety gear every day                  0               N/A

    Number of employees who attended health and safety training                33              54%
    Number of employees who did not attend health and safety
    training                                                                   19              27%

    Number of employees who did not have accidents                             49              89%

    Number of employees who had accidents                                      3                   1%

    Number of employees who were aware of accidents on the site 3              2                   N/A




3
    This excludes accidents in which the employees were personally involved.

                                                12
                                                                                 APPENDIX IV


         Table 2: Government-Owned Enterprises Awarded MCC-Funded Contracts

                                                                   Nationality
         MCA                                                           of         Value of Contract
      Country 4                    Company Name                     Company            Award
    Benin           GTZ                                            Germany        $     11,969,525
    Burkina Faso GTZ                                               Germany               9,628,943
    Georgia         Oil & Gas Construction Trust                   Azerbaijan            6,345,230
    Georgia         Khazardenizneftgastikinti Trust                Azerbaijan            8,358,967
    Georgia         Khazardenizneftgastikinti Trust                Azerbaijan            4,679,535
    Georgia         Oil & Gas Construction Trust                   Azerbaijan           2,806,440
    Ghana           China Railway Wuju Corporation                 China               42,168,601
    Ghana           Arab Contractors, Osman Ahmed Osman & Co       Egypt                 9,484,800
    Madagascar      GTZ                                            Germany               3,415,396
    Mali            SinoHydro                                      China               71,619,477
    Mali            SinoHydro                                      China               46,328,142
    Namibia         GTZ                                            Germany               7,826,423
    Namibia         China Jiangsu International Ltd                China                4,587,734
    Tanzania        SinoHydro                                      China               53,131,189
    Tanzania        SinoHydro                                      China               59,845,418
    Tanzania        China New Era                                  China               57,050,577
    Total                                                                         $   399,246,397
    Source: Millennium Challenge Corporation. Nonaudited data




4
 OIG selected Millennium Challenge Account (MCA) countries in which Chinese government-
owned enterprises were implementing Millennium Challenge Corporation infrastructure projects
(Ghana, Mali, Namibia, and Tanzania). OIG also included any non-Chinese firms implementing
infrastructure projects in these countries (Arab Contractors, Egypt). For MCA countries without a
Chinese government-owned enterprise presence, OIG did not review the non-Chinese firms.

                                               13
U.S. Agency for International Development
        Office of Inspector General
For the Millennium Challenge Corporation
       1401 H Street, NW, Suite 770
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
